APPENDIX A

United States v. Jessie
United States Court of Appeals for the Fifth Circuit
October 16, 2020, Filed
No. 19-10824
Reporter
826 Fed. Appx. 410 *; 2020 U.S. App. LEXIS 32673 **; 2020 WL 6122289

HIGGINSON, Circuit Judges.
UNITED STATES OF AMERICA, Plaintiff—Appellee,
versus CORRY JESSIE, Defendant—Appellant.

Opinion
Notice: PLEASE REFER TO FEDERAL RULES OF
APPELLATE PROCEDURE RULE 32.1 GOVERNING THE
CITATION TO UNPUBLISHED OPINIONS.

Prior History: [**1] Appeals from the United States District
Court for the Northern District of Texas. USDC No. 3:18-CR444-1.

United States v. Jessie, 2019 U.S. Dist. LEXIS 18765 (N.D.
Tex., Feb. 5, 2019)

Disposition: AFFIRMED.

Counsel: For United States of America, Plaintiff - Appellee:
Joseph Andrew Magliolo, Esq., Leigha Amy Simonton,
Assistant U.S. Attorney, U.S. Attorney's Office, Northern
District of Texas, Dallas, TX.
For Corry Jessie, Defendant - Appellant: Brandon Elliott
Beck, Federal Public Defender's Office, Northern District of
Texas, Lubbock, TX; Adam Nicholson, Assistant Federal
Public Defender, Federal Public Defender's Office, Dallas,
TX.

[*410] PER CURIAM:*
Corry Jessie pleaded guilty to two counts of being a felon in
possession of a firearm in violation of 18 U.S.C. § 922(g)(1)
and was sentenced to a total of 55 months in prison. Jessie
argues that the district court clearly erred in increasing his
offense level by four levels under U.S.S.G. § 2K2.1(b)(6)(B)
and by two levels under § 2K2.1(b)(1)(A).
The district court applied the four-level increase after finding
that Jessie's January 2017 offense, being a felon in possession
of a firearm in connection with the felony offense of
aggravated assault with a deadly weapon, constituted relevant
conduct with respect to his offenses of conviction, which
occurred [**2] in June and November 2017, because all of
the offenses were part of the same course of conduct. The
district court applied the two-level increase after finding that
Jessie possessed three firearms, which included the firearm
used in the January 2017 offense.
[*411] In determining whether the Guidelines at issue apply,
the district court must consider the offenses of conviction as
well as relevant conduct, which includes conduct that was part
of "the same course of conduct," such as an "ongoing series of
offenses." U.S.S.G. § 1B1.3(a)(2); § 1B1.3, comment.
(n.5(B)(ii)); § 2K2.1, comment. (n.14(E)); see United States v.
Rhine, 583 F.3d 878, 886 (5th Cir. 2009). Relevant course-ofconduct factors are "the degree of similarity of the offenses,
the regularity (repetitions) of the offenses, and the time
interval between the offenses." § 1B1.3, comment.
(n.5(B)(ii)); see Rhine, 583 F.3d at 886. With respect to the

* Pursuant

Judges: Before HIGGINBOTHAM, JONES, AND

to 5TH CIRCUIT RULE 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5TH CIRCUIT RULE
47.5.4.

Brandon Beck

Page 2 of 2
826 Fed. Appx. 410, *411; 2020 U.S. App. LEXIS 32673, **2
four-level increase, we review the district court's application
of the Guidelines de novo and its factual findings for clear
error. See United States v. Brummett, 355 F.3d 343, 344 (5th
Cir. 2003). With respect to the two-level increase, we review
for plain error. See Puckett v. United States, 556 U.S. 129,
135, 129 S. Ct. 1423, 173 L. Ed. 2d 266 (2009).
Jessie argues that the January 2017 offense does not constitute
relevant conduct because, when compared to the offenses of
conviction, it was not similar, regular, or temporally
proximate. He contends [**3] that the district court relied too
heavily on general similarities—the unlawful possession of
firearms in or near a vehicle—without regard to the more
specific differences—the types of firearms, the occupants of
the vehicles, and the nature of the underlying offense conduct,
including the context in which it occurred.
Jessie's three unlawful possession offenses occurred over a
period of 10 months, creating a pattern that was similar and
regular. The district court did not clearly err in concluding
that Jessie's unlawful firearm possession in January 2017,
which occurred in connection with another felony offense,
constituted relevant conduct because it was part of his
ongoing series of illegal firearm possessions over the course
of 10 months. See Brummett, 355 F.3d at 345; U.S.S.G. §
2K2.1(b)(6)(B), comment. (n.14(E)(ii)). The case law Jessie
cites to distinguish Brummett concerns drug-related crimes.
This court has already rejected that line of reasoning in an
unpublished opinion. See United States v. Brown, 783 F.
App'x 330, 333 n.3 (5th Cir. 2019), cert. denied, 140 S. Ct.
1136, 206 L. Ed. 2d 195 (2020) ("We acknowledge that in
defining similar conduct in some drug cases this court has
required that the allegedly similar conduct involve more than
the mere presence of the same drug. . . . But drug cases are
analogically distinct from [**4] felon-in-possession cases
where the elements of the underlying offense are simply being
a convicted felon in possession of a firearm."). Brummett
controls.
In light of the foregoing, the district court did not clearly err
in applying the four-level increase under § 2K2.1(b)(6)(B). Id.
It also did not plainly err in applying the two-level increase
under § 2K2.1(b)(1)(A) after finding that Jessie possessed
three firearms, including the firearm in the January 2017
relevant conduct offense.
AFFIRMED.

End of Document

Brandon Beck

APPENDIX B

Case 3:18-cr-00444-S Document 41 Filed 07/19/19

Page 1 of 7 PageID 118

19-10824.83

Case 3:18-cr-00444-S Document 41 Filed 07/19/19

Page 2 of 7 PageID 119

19-10824.84

Case 3:18-cr-00444-S Document 41 Filed 07/19/19

Page 3 of 7 PageID 120

19-10824.85

Case 3:18-cr-00444-S Document 41 Filed 07/19/19

Page 4 of 7 PageID 121

19-10824.86

Case 3:18-cr-00444-S Document 41 Filed 07/19/19

Page 5 of 7 PageID 122

19-10824.87

Case 3:18-cr-00444-S Document 41 Filed 07/19/19

Page 6 of 7 PageID 123

19-10824.88

Case 3:18-cr-00444-S Document 41 Filed 07/19/19

Page 7 of 7 PageID 124

19-10824.89

